                                                                Issue Date
                                                                         May 10, 2007
                                                                Audit Report Number
                                                                         2007-FW-1009




TO:        Brian D. Montgomery
           Assistant Secretary for Housing – Federal Housing Commissioner, H


FROM:
           Frank E. Baca
           Regional Inspector General for Audit, Fort Worth Region, 6AGA

SUBJECT: Countrywide Home Loans, Inc., Houston, Texas, Generally Complied with HUD
           Requirements in Originating FHA-Insured Single-Family Mortgages


                                  HIGHLIGHTS

 What We Audited and Why

            We reviewed branch number 358 of Countrywide Home Loans, Inc. (branch), a
            direct endorsement lender. The objective of the review was to determine whether
            the branch complied with U. S. Department of Housing and Urban Development
            (HUD) regulations, procedures, and instructions in the origination of Federal
            Housing Administration (FHA)-insured single-family mortgages. We selected
            this branch for review because it had the fourth highest number of defaults (423
            loans and an 11.58 percent default rate) within the first two years in the Houston
            HUD office jurisdiction as of December 13, 2006.
What We Found


           The branch generally complied with HUD regulations, procedures, and
           instructions in the origination of FHA-insured single-family mortgages. Nine of
           the ten loan files reviewed contained minor deficiencies; however, one of the files
           contained significant deficiencies, which placed the FHA insurance fund at
           unnecessary risk.

What We Recommend


           We recommend the assistant secretary for single family housing require the
           branch to indemnify HUD for one loan with an original mortgage amount of
           $112,237 that contained significant deficiencies. We also recommend the
           assistant secretary require the branch to improve its policies, procedures, and
           controls to ensure that FHA-insured loans are originated, processed, and
           underwritten according to HUD requirements.

           For each recommendation without a management decision, please respond and
           provide status reports in accordance with HUD Handbook 2000.06, REV-3.
           Please furnish us copies of any correspondence or directives issued because of the
           audit.


Auditee’s Response
           We provided a draft to the auditee on April 10, 2007, and requested a response by
           May 1, 2007. The branch provided a written response on April 25, 2007. The
           branch acknowledged its need for procedures and reported it had implemented
           new procedures and increased training. In addition, they offered additional
           information to offset our recommendation of indemnification for the one loan.
           We maintain that HUD should seek indemnification for this loan. We also
           discussed our initial findings with the Denver Homeownership Center's Quality
           Assurance Division (QAD). QAD did not submit a written response to the draft;
           however, they agreed with our initial finding. The complete text of the auditee’s
           response, along with our evaluation of that response, can be found in appendix B
           of this report.




                                             2
                            TABLE OF CONTENTS

Background and Objectives                                                       4

Results of Audit
   Finding: One of Ten Loan Files Reviewed Contained Significant Deficiencies   5

Scope and Methodology                                                           7

Internal Controls                                                               8

Appendixes
   A. Schedule of Questioned Costs and Funds to Be Put to Better Use            9
   B. Auditee Comments and OIG’s Evaluation                                     10
   C. Case Narrative                                                            13




                                            3
                     BACKGROUND AND OBJECTIVES

Countrywide Home Loans, Inc. (Countrywide), is a direct endorsement lender for Federal
Housing Administration (FHA)-insured loans. Countrywide’s branch number 358 (branch) is
located at 2424 South Highway 6 in Houston, Texas. We selected this branch for review because
it had the fourth highest number of defaults (423 loans and an 11.58 percent default rate) within
the first two years in the Houston U.S. Department of Housing and Urban Development (HUD)
office jurisdiction as of December 13, 2006. The branch is comprised of two separate divisions.
The sales division, which is managed by a branch manager, is comprised of loan officers who
take the initial loan applications from the applicant and collect preliminary documentary
evidence. The operations division, which is managed by a branch operations manager,
completes the loan processing and underwriting functions.

The objective of our survey was to determine whether the branch complied with HUD
regulations, procedures, and instructions in the origination of FHA-insured single-family
mortgages.




                                                4
                                RESULTS OF AUDIT

Finding: One of Ten Loan Files Reviewed Contained Significant
Deficiencies
All 10 loan files reviewed had underwriting deficiencies; however, only one contained
significant issues that present a material risk of loss to FHA and warrant indemnification by the
branch. The deficiencies occurred because the branch's quality control procedures did not
always ensure its staff processed and underwrote loans according to HUD policies and
procedures. As a result, HUD should seek indemnification of one loan with an original mortgage
amount of $112,237 and require the branch to strengthen its procedures and controls to prevent
further errors from occurring.



 One File Had Significant
 Deficiencies


              The 10 loan files reviewed contained numerous procedural, compliance, and
              documentation deficiencies. Most of the files reviewed had minor underwriting
              deficiencies; however, one file had errors that should result in indemnification by
              the branch.

              Minor deficiencies are those errors which HUD has determined do not present a
              material risk to the FHA insurance fund. These include documentation errors,
              such as missing borrower explanations for collection accounts, and procedural
              and compliance errors, such as the lender’s failing to complete a block on the
              mortgage credit analysis worksheet indicating the verification of certain eligibility
              requirements. Of 10 loan files reviewed, nine had minor underwriting
              deficiencies like those described above.

              Significant deficiencies are errors that HUD has determined are unacceptable and
              present a material risk of loss to FHA. An example given by HUD of an
              unacceptable deficiency is the lender’s improperly calculating the borrower’s
              income, resulting in an excessive back-end debt ratio. One of the 10 files
              reviewed contained the significant errors of improperly excluding liabilities and
              exceeding the HUD-approved back-end debt ratio. This loan had a $112,237
              original mortgage. See appendix C for detailed information on this loan.




                                                5
The Branch’s Quality Control
Procedures Need Strengthening

             The branch's policies and procedures for originating and underwriting FHA loans
             were not always effective. It lacked effective written policies and procedures
             because both the branch manager and the operations manager relied upon their
             knowledge of the mortgage origination and underwriting process to originate
             loans correctly. Additionally, they used their knowledge, not policies and
             procedures, to train their staff. However, their knowledge was not always in
             agreement with HUD’s requirements. For example, the operations manager told
             us that she did not include medical debts in her determination of the
             creditworthiness of the borrower. However, HUD’s policies require all
             collections to be explained by the borrower. There is no exclusion for medical
             collection debts.


Conclusion


             The branch generally complied with HUD’s written regulations and instructions
             in originating and underwriting FHA-insured mortgages. All 10 loan files
             reviewed contained errors, although most were minor. However, one of the files
             contained significant deficiencies, which warrant indemnification by
             Countrywide. HUD should seek indemnification of one loan with an original
             mortgage amount of $112,237.

Recommendations

             We recommend HUD’s assistant secretary for single family housing require
             Countrywide to

             1A. Indemnify HUD for one loan with an original mortgage amount of
                 $112,237, which contained significant deficiencies that present a material
                 risk to the FHA insurance fund as shown in appendix C. The projected loss
                 to HUD is $32,549, based on HUD’s insurance fund average loss rate of 29
                 percent.

             1B. Strengthen and improve its quality control environment to ensure that FHA-
                 insured loans are originated, processed, and underwritten according to HUD
                 requirements.




                                             6
                        SCOPE AND METHODOLOGY

To accomplish our objectives, we

   •   Reviewed background information and the criteria that control single-family housing loan
       origination.
   •   Reviewed various reports, databases, and documents to determine existing conditions at
       the branch. The data included Countrywide’s quality control plan and HUD’s Quality
       Assurance Division’s recent comprehensive review of Countrywide.
   •   Obtained a listing of loans from HUD’s Neighborhood Watch system, which included
       loans originated at Countrywide’s branch number 358 that defaulted within the first two
       years of origination. The total universe was 46 loans (all the loans related to a single
       underwriter).
   •   Compared the survey universe of 46 loans to data in HUD’s Public and Indian Housing
       Information Center database to determine whether any of the loan applicants were also
       participants in the Section 8 voucher program.
   •   Selected a nonrepresentative sample of 10 loans: five that defaulted in three or fewer
       payments and five on which HUD paid a claim.
   •   Reviewed HUD’s and the branch’s files for the 10 sample loans to determine whether the
       branch complied with HUD’s loan origination requirements.
   •   Conducted interviews with branch managers and HUD’s quality assurance staff.

We used data maintained by HUD in the Neighborhood Watch system for background
information and in selecting our sample of loans. We did not rely on the data to base our
conclusions. Therefore, we did not assess the reliability of the data.

We conducted our fieldwork during December 2006 and January 2007. We conducted the
review at the offices of Countrywide, branch number 358, and the local HUD office in Houston,
Texas. Our review covered the period October 1, 2004, through September 30, 2006. We
performed our review in accordance with generally accepted government auditing standards.




                                                7
                             INTERNAL CONTROLS

Internal control is an integral component of an organization’s management that provides
reasonable assurance that the following objectives are being achieved:

   •   Effectiveness and efficiency of operations,
   •   Reliability of financial reporting, and
   •   Compliance with applicable laws and regulations.

Internal controls relate to management’s plans, methods, and procedures used to meet its
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls
              We determined the following internal controls were relevant to our audit objectives:

                  •   Origination and underwriting policies and procedures – Policies and
                      procedures established by management to ensure that FHA-insured loans
                      are originated and underwritten in accordance with HUD requirements.

                  •   Quality control process – Policies and procedures established by
                      management to ensure that the quality control plan has been implemented
                      and related reviews are performed in accordance with HUD requirements.

              We assessed the relevant controls identified above.

              A significant weakness exists if management controls do not provide reasonable
              assurance that the process for planning, organizing, directing, and controlling
              program operations will meet the organization’s objectives.


 Significant Weaknesses


              Based on our review, we did not identify any significant weaknesses.




                                                8
                                  APPENDIXES

Appendix A


                SCHEDULE OF QUESTIONED COSTS
                AND FUNDS BE PUT TO BETTER USE

                          Recommendation        Funds be put to
                              number               better use 1/
                                 1A                    $32,549




1/   Recommendations that funds be put to better use are estimates of amounts that could be
     used more efficiently if an Office of Inspector General (OIG) recommendation is
     implemented. This includes reductions in outlays, deobligation of funds, withdrawal of
     interest subsidy costs not incurred by implementing recommended improvements,
     avoidance of unnecessary expenditures noted in preaward reviews, and any other savings
     which are specifically identified.

     Implementation of our recommendation to indemnify loans that were not originated in
     accordance with FHA requirements will reduce FHA’s risk of loss to its insurance fund.
     The amount above reflects that, upon sale of the mortgaged property, FHA’s average loss
     experience is about 29 percent of the claim amount based upon statistics provided by
     HUD.




                                            9
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 1

Comment 1


Comment 2




                         10
Comment 2




            11
                            OIG Evaluation of Auditee Comments

Comment 1

Countrywide acknowledged that its loan processor failed to update the borrower’s credit report
to reflect a corrected loan balance as required. Countrywide also stated that this corrected
balance would have eliminated the need to include the debt in the borrower’s overall debt ratio.
We maintain that HUD should seek indemnification. Since the file lacked the amended credit
report, Countrywide’s Quality Assurance staff also showed a recalculation of the back-end debt
ratio to 52.75 percent, and they rated the file as unsatisfactory. In addition, the file contained
indications of other unexamined liabilities such as payday loans. Further, the discrepancies in
the total liabilities are significant. Countrywide should have followed up on these liabilities as
HUD’s Neighborhood Watch system shows the cause of the loan default to be excessive
obligations.

Comment 2

Countrywide stated that they have implemented new procedures at the branch to address the
errors caused by “sloppy processing and failure to accurately clear conditions required for loan
approval.” Countrywide further stated that they have scheduled increased training. We
commend Countrywide for the proactive efforts taken to improve loan processing and approval.




                                                12
Appendix C

                                 CASE NARRATIVE


Mortgage amount: $112,237

Gift amount: None

Date of loan closing: February 23, 2005

Status as of December 30, 2006: Delinquent (three months); special forbearance on October 1,
2006

Payments before first default reported: 10

Summary: This loan should be indemnified based on unresolved credit issues and violation of
the back ratio limit.


Loan Exceeded Back Ratio Due to Undisclosed Liabilities

The borrower’s bank statements and credit report showed liabilities that the lender did not
consider when qualifying the borrower. The borrower’s credit report showed a car loan that the
lender improperly excluded from consideration. The borrower’s bank statements also showed a
history of payday loans. Despite having a copy of the bank statements, the lender did not
consider the payday loans. The borrower’s credit report also showed several collections
accounts for the borrower; however, the branch incorrectly attributed them to the nonpurchasing
spouse. The discrepancies in the liabilities are significant, and branch staff should have further
questioned them. At the time the branch originated this mortgage loan, HUD allowed back ratios
of 41 percent, but due to the additional auto liability, the borrower’s back ratio was 52.75
percent.




                                               13
